HHS/OIG, Audit -"Audit of the Post Retirement Benefits Costs Claimed by Blue Cross Blue Shield of North Carolina
For Fiscal Year's 1993 Through 2002,"(A-07-04-00167)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of the Post Retirement Benefits Costs Claimed by Blue Cross Blue Shield of North Carolina For Fiscal Year's
1993 Through 2002," (A-07-04-00167)
May 24, 2004
Complete
Text of Report is available in PDF format (305 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to determine the allowability of PRB costs claimed for Medicare reimbursement
by North Carolina for FYs 1993 through 2002.  For FYs 1993 through 2002, North Carolina did not claim $616,846 of
PRB costs that were allowable for Medicare reimbursement.  North Carolina should revise its FACPs for FYs 1993 through
2002 to claim additional allowable PRB costs.